Supreme Court, U.S.
FILED

WAIVER

AUG 1 3 2021
OFFICE OF THE CLERK

Supreme Court of the United States
No. 21-85

Neil Cr. Leeds
(Petitioner)

Hanmi Bank
(Respondent)

v.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
' X I am filing this waiver on behalf of all respondents.
0

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

M

I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme
,A
fice, 1 First Street, NE, Washington, D.C. 20543).

Signature
Date:

04

3/ Z02./

(Type or print) Name ia4/2
is r.

•

l44 r1 6A/

❑ Ms.

Mrs.

0 Miss

Firm LimNexus LLP
Address 707 Wilshire Boulevard, 46th Floor
City & State Los Angeles, CA
Phone 213-955-9500

Zip 90017
Email

mR1.45.fire,„g JialifieNIA, LDAI

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.
cc: Appellant Neil G. Leeds

RECEIVED
AUG 2 0 2021
OFFICE OF THE CLERK

SUPREME COURT, U.S.

Mark T. Hansen
Partner

LIM NEXUSLLP

Tel. 213.955.9500
Mark. Hansen@LimNexus.com

ATTORNEYS AT LAW

August 13, 2021

VIA FIRST CLASS MAIL
Mr. Scott S. Harris
Office of the Clerk
Supreme Court of the United States
Washington, DC 20543-0001
RE:

Leeds v. Hanmi Bank
Supreme Court of the United States
Case No. 21-85
Declination to Respond to Petition for Writ of Certiorari

Dear Mr. Harris:
This office represents Respondent Hanmi Bank in the above-referenced matter.
We are writing with regard to Appellant Neil G. Leeds's recent notice of his Petition for
Writ of Certiorari to the Supreme Court of the United States, and the Court's inquiry
regarding Respondent's interest in responding thereto.
A review of Appellant's petition confirms that this case does not warrant review
by the Court. The petition fails to identify any federal issue, or to show that the questions
presented arise out of a conflict in the courts of appeal or state supreme courts. The
petition also discloses no issues of general importance that are ripe for Supreme Court
review. Indeed, the issues raised are of little consequence beyond the facts of this case
itself.
Accordingly, Respondent does not intend to respond to the Petition for Certiorari
unless requested to do so by the Court. To that end, enclosed is a completed waiver form.
Please do not hesitate to contact me should you have any questions.
Very truly yours,

MTH:rk:4840-8318-9749
Enclosure

RECEIVED
AUG 2 0 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

707 WILSHIRE BOULEVARD, 46TH FLOOR, Los ANGELES, CA 90017 I (213) 955-9500 I LIMNEXUS.COM
LOS ANGELES I SAN FRANCISCO I WASHINGTON, DC I WILMINGTON, DE

Mr. Scott S. Harris
August 13, 2021
Page 2

cc:

Neil G. Leeds (via email and U.S. mail) (w/encl.)

